LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

December 7, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE: NO. 19-1257:
RE: NO. 19-1258:

MARK BRNOVICH, ET AL. V. DEMOCRATIC NATIONAL COMMITTEE,
ET AL.
ARIZONA REPUBLICAN PARTY, ET AL. V. DEMOCRATIC NATIONAL
COMMITTEE, ET AL.

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae Judicial Watch, Inc. and Allied Educational Foundation referenced above
contains 7,798 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 7th day of December 2020.

